   ANALYSIS OF THE BENEFITS OF
HIGH-SPEED RAIL ON THE NORTHEAST
            CORRIDOR
      Federal Railroad Administration

          Number: CC-2008-091
        Date Issued: June 26, 2008
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Analysis of the Benefits of                                         Date:    June 26, 2008
           High-Speed Rail on the Northeast Corridor

  From:    David Tornquist                                                               Reply to
                                                                                         Attn. of:   JA-50
           Assistant Inspector General
             for Rail and Maritime Program Audits and
             Economic Analysis

    To:    Federal Railroad Administrator


           This report presents the results of our review of the benefits of high-speed
           rail (HSR) on the Northeast Corridor (NEC). HSR has been proposed as a key
           option for managing congestion on the NEC, a region that has experienced a
           significant increase over the past 20 years in the number of vehicles on its
           congested highways and aircraft in its congested airspace. For example, H.R.
           6003, the Passenger Rail Investment and Improvement Act of 2008, which was
           reported out of the House Committee on Transportation and Infrastructure on May
           22, 2008, directs the Secretary of Transportation to solicit proposals for the design,
           construction, and operation of a HSR system between Washington, DC and
           New York City. In addition, this bill, and its Senate counterpart S. 294, include
           other provisions that more broadly promote HSR on the NEC and elsewhere.

           The objectives of our review were to: (1) estimate the revenue and congestion
           relief benefits associated with different levels of HSR on the NEC and
           (2) determine whether HSR would pay for itself through increased revenues,
           congestion relief, or a combination of the two. Additionally, we sought to estimate
           the consumer surplus provided by different levels of HSR on the NEC. 1

           To address our objectives, we worked with Charles River Associates, International
           (CRA) to model the benefits from two different levels of HSR on the NEC, taking
           into account the availability of the alternatives of traveling by air and automobile.
           We compared the results from this analysis to existing estimates of the costs of

           1
               Commonly included in transportation cost-benefit analyses, consumer surplus captures the difference between what
               consumers are willing to pay for a service and what they actually pay for that service.
                                                                                 2


implementing HSR on the NEC to determine if the benefits from implementing
HSR would exceed its costs. Exhibit A provides detailed information on our
scope and methodology.


BACKGROUND
HSR has long been discussed as a means to alleviate NEC congestion. In 1976,
legislation was passed envisioning 3-hour service between Boston and New York
(the north end) and 2 1/2-hour service between New York and Washington (the
south end). 2 However, both the condition of the NEC infrastructure and its
capacity constraints, in tandem with competing demands from other users such as
commuter traffic and freight, have prevented Amtrak’s Acela, the most rapid rail
service on the NEC, from ever meeting the planned travel times. Currently the
scheduled trip times of Acela, exceed the legislative targets by almost 1/2-hour on
both ends.

In this review, we focused our analysis on two scenarios for HSR estimated by
CRA. In scenario 1, CRA estimated the benefits associated with achieving the
travel times initially envisioned in the 1976 legislation, that is 3-hour service
between Boston and New York and 2 1/2-hour service between New York and
Washington. In scenario 2, CRA estimated the benefits of achieving travel times
that are 1/2-hour shorter on both ends, that is, 2 1/2-hours between Boston and
New York, and 2-hours between New York and Washington.


RESULTS IN BRIEF
The benefits from HSR in scenario 1 would exceed the expenditures required to
implement it. While the benefits of HSR in scenario 2 would be considerable, the
absence of reliable cost estimates for achieving these travel times made it
impossible to determine if the benefits in this case would exceed the costs. A
sizeable share of air travelers along the NEC would switch to HSR if it were
available at scenario 1 speeds, thereby providing some relief to the area’s
congested airspace.

The benefits from HSR under scenario 1 would exceed the expenditures
required to implement it. We found that achieving passenger rail travel times of
3-hours between Boston and New York and 2 1/2-hours between New York and
Washington (scenario 1) would produce a net present value benefit of



2
    The Railroad Revitalization and Regulatory Reform Act of 1976.
                                                                                                                       3


$16.3 billion in 2006 dollars. 3 This amount exceeds the estimated $14.0 billion in
2006 dollars of infrastructure investments 4 needed to achieve these travel times.
These benefits are composed of $11.9 billion in increased rail revenues,
$4.1 billion in gains in consumer surplus, and $0.3 billion in congestion relief.

HSR on the NEC would cause a notable share of current air travelers to
choose to travel by rail rather than by plane. We found that roughly 11 percent
of air travelers would divert to HSR at scenario 1 travel times. This would provide
congestion relief at NEC airports and in NEC airspace. However, less than
1 percent of automobile travelers along the NEC would divert to HSR in
scenario 1. This result reflects the greater similarities between air and rail travel
than rail and automobile travel, particularly with regards to convenience.

Benefits from HSR would grow at an increasing rate with each further
reduction in travel time. Scenario 2, with its travel time reduced by an additional
1/2-hour from scenario 1 on both the north and south ends of the NEC, would
produce net present value benefits of $36.0 billion. This is more than double those
in scenario 1. Our evaluation showed that each further 1/2-hour reduction in travel
time would generate benefits at a greater rate as travel time decreased.

Substantial additional benefits beyond those estimated in our evaluation
would result from implementing HSR on the NEC. Freight and commuter
services also would benefit from the investments needed to enable HSR in
scenario 1, producing benefits beyond our estimates. In addition, investments
supporting any level of HSR would reduce aircraft and automobile emissions.

OBSERVATIONS AND CONCLUSIONS

Benefits from HSR, under Scenario 1, Exceed the Costs Required to
Implement It
The $14.0 billion investment needed to achieve passenger rail travel times of
3-hours between Boston and New York and 2 1/2-hours between New York and
Washington would produce a net present value benefit of $16.3 billion in
2006 dollars. Travel times on the NEC have been slowed by the condition of the
infrastructure, its capacity constraints, and competing demands for the use of the
infrastructure by freight and commuter trains. As a result, Acela’s scheduled trip
3
    Unless otherwise indicated, all the benefit estimates quoted in this report are calculated for the 33 years following
    completion of the necessary infrastructure investments and expressed in 2006 net present value terms; that is, they
    are discounted back to 2006 and expressed in 2006 dollars. We assumed the necessary investments would be
    completed in 2012 for scenario 1 and in 2017 for scenario 2.
4
    The investment cost estimates quoted in this report effectively assume all investments occurred in a single year,
    2006, and are expressed in 2006 dollars. The net present value of the investments would be reduced if they were
    spread out over time.
                                                                                                                       4


time on both the north and south ends exceeds the goals set in 1976 by almost
1/2-hour each. It would require an estimated $14.0 billion in infrastructure
investments to achieve these travel times. Three categories of benefits were
considered: revenues, consumer surplus, and congestion relief.

Revenues
The majority of the estimated benefits, $11.9 billion, are composed of increased
revenues (see figure 1 on the next page), which would grow from a combination of
factors, as indicated by our models of HSR demand. First, existing riders would be
willing to pay more for the faster service. Second, ridership (and therefore
revenues) would increase as travelers from other transportation modes diverted to
rail service. Finally, riders who would otherwise not have traveled at all would
decide to do so because of the new service. Revenues represent benefits from
HSR because they provide an indication of the value of the service to HSR
passengers.

Consumer Surplus
Gains in consumer surplus would total $4.1 billion, which means travelers would
be willing to pay $4.1 billion more for HSR than the amount they would actually
pay. 5 This difference between the value of the service to consumers and what they
would actually pay represents an improvement in consumer welfare or well-being.
The calculation of consumer surplus is a commonly used method of determining
the improvement in welfare associated with a transportation project. For example,
it is used in the evaluation of the Southern HSR project proposed by the North
Carolina Department of Transportation.

Congestion Relief
The estimated benefits from congestion relief on the NEC, resulting from
reductions in delays on roads and in airports and airways, add another $0.3 billion.
Faster rail service diverts travelers from the air and roads to rail. The estimated
value of congestion relief is the sum of the value of time saved by NEC air and
road travelers and the decrease in operating costs of air carriers along the NEC.




5
    An HSR provider cannot capitalize on this willingness to pay more, in part because it varies from passenger to
    passenger on the same train. It is not feasible for an HSR provider to identify those passengers who would be willing
    to pay more, or how much more each would be willing to pay.
                                                                                                                      5


                      Figure 1. Benefits of HSR on the NEC ($ Billions)
                 40
                                                                                     $0.6


                 30
                                                                                     $8.6
    $ Billions




                 20
                                   $0.3                                                                 Total $36.0

                                   $4.1                                              $26.8

                 10
                                                      Total $16.3
                                   $11.9


                 0
                                Scenario 1                                       Scenario 2

                           Revenues            Consumer Surplus               Congestion Relief

Source: OIG analysis.

Required Investment
The estimate of $14.0 billion in needed infrastructure investments is based on the
most recent studies available 6 : a 1994 study of the NEC North End (the section
between Boston and New York), produced by the Federal Railroad Administration
(FRA), and Amtrak’s 2000 study of the South End (the section between New York
and Washington).7 The bulk of the costs identified in these studies are required to
bring the NEC up to a state of good repair and to expand capacity to accommodate
all users, both of which are preconditions for achieving scenario 1 travel times. To
the extent that it was possible to identify which investments in these studies have
already been made, the costs of completed investments were excluded from the
total.

Comparatively minor additional costs beyond those needed to achieve a state of
good repair and to expand capacity are required solely for implementing HSR.
Only 8 percent or $1.0 billion of the $14.0 billion in investment expenditures are
required solely for HSR (see table 1 on the next page). By comparison, the

6
    These studies do not include the costs of upgrading the 18 mile section of the NEC owned by MetroNorth. We
    requested this information from MetroNorth representatives, but they did not provide it to us. We do not expect that
    inclusion of these costs would change our conclusions because the portion of the NEC involved is relatively small.
7
    We also reviewed the 2006 “Engineering State of Good Repair Study”. However, that study drew heavily from and
    provided less detailed information than the 2000 South End Plan.
                                                                                                                         6


investments required to achieve a state of good repair total $6.2 billion,8 and those
providing the necessary capacity expansions would cost $6.5 billion. “Life Safety”
investments account for the remainder, $0.3 billion, of the $14.0 billion total.

Table 1. Infrastructure Investments Needed for Scenario 1 ($ Millions)
            HSR-Specific:
                North End                                                                      $182
                South End                                                                      $867
              Subtotal                                                                        $1,049
            State of Good Repair:
                  North End                                                                    $577
                  South End                                                                   $5,616
               Subtotal                                                                       $6,193
            Capacity Improvements:
                North End                                                                      $543
                South End                                                                     $5,955
              Subtotal                                                                        $6,498
            Life Safety Investments                                                              $268

            Grand Total                                                                      $14,008
            Source: OIG analysis of FRA 1994 North End Plan and Amtrak 2000 South End Plan.

A Notable Share of Air Travelers Would Switch to HSR
We estimated that 11 percent of current air travelers along the NEC would choose
to travel by HSR instead of by air, if it were available at scenario 1 travel times.
Figure 2 on the next page illustrates this for FY 2006. 9 On the other hand, we
found that HSR achieving scenario 1 or scenario 2 travel times would have little
impact on automobile ridership along the NEC. The difference in the
responsiveness of air and automobile travelers is consistent with the findings in
other studies, which show that air and rail travel are closer substitutes for each
other than they are for automobile travel. 10 Automobile travel differs from air or
rail travel in that it generally involves door-to-door service, offers greater
flexibility in time of departure, and does not require travelers to share space with
8
     Amtrak recently estimated that it needs $4.8 billion to bring its NEC infrastructure to a state of good repair, with
     additional funds needed for the portion of the NEC owned by MetroNorth. We could not reconcile that estimate,
     which was not provided in the context of a study, with our information.
9
     The estimates of the net present value of congestion benefits effectively assumed a constant diversion rate for all the
     years for which benefits were calculated.
10
     See, for example, “Bay Area/California High-Speed Rail Ridership and Revenue Forecasting Study”, Cambridge
     Systematics, Inc., August, 2006 and “A Heteroskedastic Extreme Value Model of Intercity Travel Mode Choice”,
     Chandra Bhat, Transportation Research Part B: Methodological, Volume 29, Issue 6, December 1995, pp 471-483.
                                                                                                                                   7


           strangers. Consequently, rail travel must be extremely competitive in other
           dimensions, such as speed or cost, to attract automobile travelers.
                                                                                                                              11
                  Figure 2. Effects of HSR on Air and Auto Ridership in FY 2006

           9.0                                                                       134.0
                                                                                                               0.3%         0.6%
                                             10.6%         20.3%


           6.0                                                                       131.0
Millions




                                                                          Millions
           3.0                                                                       128.0




           0.0                                                                       125.0
                       Base         Scenario 1       Scenario 2                              Base     Scenario 1      Scenario 2
                                Air Ridership                                                        Auto Ridership
                 Source: OIG analysis.



           Total Benefits from HSR Would Grow at an Increasing Rate with
           Further Reductions in Travel Time
           In scenario 2, we estimated benefits for travel times that were 1/2-hour shorter
           than in scenario 1 for travel between Boston and New York and between New
           York and Washington. We found that the net present value of the resulting
           benefits would be $36.0 billion. This is more than double the benefits that would
           be realized in scenario 1 (as shown in figure 1 on page 5). Both revenues and
           consumer surplus would more than double between scenarios 1 and 2. Congestion
           benefits would just double, as would the percentages of air and auto travelers that
           would switch to HSR (see figure 2).

           In order to see how benefits would vary with travel times, we estimated the
           ridership and revenues for a wider range of travel times. In this effort, we only
           estimated results for a single year, 2006, and assumed fares would remain at
           current levels, because that was sufficient to allow us to see the pattern in the
           responsiveness of benefits to travel times. We found that the total benefits from

           11
                The base ridership numbers depicted in figure 2 differ from actual FY 2006 ridership for two reasons. First, the base
                figures only track ridership for those counties assumed to receive HSR service (which are the same as those currently
                receiving Acela service). This reasonably approximates the number of actual NEC air travelers, but is significantly
                less than the actual NEC automobile ridership. Second, the base figures, like the figures for scenario 1 and 2, assume
                Amtrak is using a revenue maximization process to determine fares that would have diverted more riders from
                automobiles and airlines to rail than Amtrak’s present revenue management process does. Exhibit A provides further
                discussion of the revenue maximization issue.
                                                                                               8


 HSR would grow at an increasing rate with each successive reduction in travel
 time, as shown in figure 3. In other words, the benefits from each additional
 1/2-hour reduction in time would increase as travel time decreased. This result
 implies that scenarios 1 and 2 were not unusual in terms of the scale of benefits
 produced.

Figure 3. Benefits from Various Travel Time Reductions for 2006 ($ Millions)

         $2,500

                                                              $526
         $2,000

                                            $413
         $1,500
                             $335
         $1,000


          $500


             $0
                    3:00 / 2:30       2:30 / 2:00    2:00 / 1:30         1:30 / 1:00



                           Travel Time [North End Time (H:M) / South End Time (H:M)]


                           Total Annual Benefits                   Change in Annual Benefits
   Source: OIG analysis.

 The results from this analysis also imply that investigation of the costs of
 achieving travel times shorter than those in scenario 1 is warranted to allow for
 determination of benefits net of costs in those situations. However, at present,
 there are no comprehensive estimates of the costs of the NEC infrastructure
 investments necessary to support travel times shorter than those considered in
 scenario 1. Amtrak and FRA representatives indicated that they anticipate the
 costs of achieving the second half hour of travel time reduction reflected in
 scenario 2 would be greater than the costs associated with the first half hour of
 travel time reduction reflected in scenario 1. The costs of infrastructure
 investments to further reduce travel times are expected to grow at an increasing
 rate with each successive decrease in travel time because the most cost-effective
 options for reducing travel time would be implemented first.
                                                                                   9


Substantial Additional Benefits Beyond Those Estimated in Our
Review Would Flow from the Investments Enabling HSR
Our estimate of the benefits of HSR on the NEC is conservative in that it excludes
benefits related to improved nationwide airspace traffic flows and improved
commuter and freight services. We did not calculate these effects because each of
them would have required extensive additional modeling. For example, producing
reliable estimates of the benefits from improved commuter services would require
modeling ridership for each of the seven NEC commuter agencies, a task of
considerable scope.

Regarding air travel, we only calculated the monetary value of congestion benefits
for travel on the NEC. We would expect, for example, that reducing congestion in
the New York City area would improve air traffic flows throughout the national
airspace system. That is, the delays in other parts of the country caused by delays
in flights into or out of New York would be reduced. We did not include the
benefits of the broader congestion reduction in our analysis.

Substantial investments in the condition and capacity of the NEC could
significantly improve commuter and freight services. Currently, there are many
locations at which the condition of the infrastructure or physical constraints limits
capacity, speed or both. Even minor delays on one service can quickly cascade
into significant delays for all services. With respect to freight, current clearance
restrictions on part of the infrastructure mean that essentially only size-restricted
local traffic can use the corridor at present.

The benefits to the public of improvements in commuter and freight services could
be considerable. By some measures commuter rail services are much larger in
scale than Amtrak services. For example, Amtrak accounts for only about
14 percent of weekday NEC train movements and roughly 5 percent of annual
NEC riders. Commuter rail traffic comprises virtually all of the rest. Freight
operations could change in both scale and nature if clearance constraints were
removed.


CONCLUSION
The benefits from HSR, as initially envisioned (scenario 1), exceed the
expenditures necessary to implement it. We estimated that HSR at this level of
service would produce a net present value benefit of $16.3 billion in 2006 dollars,
which exceeds the estimated $14.0 billion in 2006 dollars of infrastructure
investments needed to achieve it. While our estimate of the financial impact from
congestion relief was small, $0.3 billion, we also estimated that a sizeable share of
                                                                              10


air travelers along the NEC would divert to HSR, thereby providing some relief to
the congested airspace in the area. Our analysis also showed that as travel times
decrease further, the resulting benefits from HSR would grow at an increasing
rate. The investments initially envisioned for HSR would produce benefits well
beyond those quantified here. They would also significantly benefit NEC
commuter and freight rail services and provide benefits such as reduced aircraft
and automobile emissions.

We have discussed our observations and conclusions with FRA and Amtrak
officials. Since we are making no recommendations, no formal response to this
product is required. FRA did not offer comments, but Amtrak objected to our
characterizing achievement of a state of good repair and capacity improvements as
preconditions to realizing scenario 1 travel times. However, we consider these
investments essential to the implementation of reliable HSR service and have not
changed our report to reflect Amtrak’s comment.

We appreciate the courtesies and cooperation of Amtrak and Federal Railroad
Administration representatives during this review. If you have any questions
concerning this report, please call me at (202) 366-1981 or Mitchell Behm, the
Program Director, at (202) 366-1995.

                                       #

cc:   Audit Liaison, OST, M-1
      Audit Liaison, FRA, RAD-43
      Amtrak Liaison
                                                                                                                  11




EXHIBIT A. SCOPE AND METHODOLOGY



SCOPE

We conducted an analysis of the costs and benefits of HSR along the NEC. Our
objectives were to: (1) estimate the revenue and congestion relief benefits
associated with different levels of HSR on the NEC and (2) determine whether
HSR would pay for itself through increased revenues, congestion relief, or a
combination of the two. Additionally, we sought to estimate the consumer surplus
provided by different levels of HSR on the NEC.

We worked with CRA to estimate the benefits from reducing the trip times for
Acela on the NEC. CRA used econometric models to estimate demand for HSR,
taking into account the availability of opportunities to travel by air, automobile,
and conventional rail. They also estimated revenue maximizing fares and used a
model of the NEC highway network to estimate reductions in roadway congestion.
We developed estimates of the costs of implementing HSR using available studies.


METHODOLOGY

Revenues

Overview
CRA carried out the estimation of the benefits from HSR for scenarios 1 and 2 in
four steps. First, CRA generated demand curves 12 for HSR for every station-pair
for each of the two scenarios as well as for travel at the current or base travel
times. Second, CRA utilized these demand curves to calculate the HSR fares that
would maximize Amtrak’s revenues in each of the scenarios and the base case.
Third, CRA estimated the change in revenues, consumer surplus, and congestion
benefits. Fourth, CRA used forecast values of air and automobile travel demand
and socioeconomic variables to project the benefits over the lifespan of the
infrastructure investments, and the net present values of the projected benefit
streams were calculated. In addition to estimating benefits for scenarios 1 and 2,


12
     In this instance, a demand curve is the relationship between a range of HSR fares and the number of travelers who
     wish to take HSR at each fare in the range.


Exhibit A. Scope and Methodology
                                                                                                                    12


CRA conducted analyses of the sensitivity of results to further reductions in travel
times. Each of these steps is addressed in greater detail below.

Estimating Demand Curves for HSR
To generate HSR station-pair demand curves for each of the scenarios and the
base case, CRA used econometric models (specifically, binary mode choice
models) to calculate the HSR ridership corresponding to a wide range of HSR
fares for each travel time scenario. The fares for conventional rail were assumed to
be held constant at their 2006 levels.

Obtaining Revenue Maximizing Fares
In the second stage of the study, the demand curves generated in the previous
stage were used to obtain the HSR fares that maximize Amtrak’s revenue for the
two scenarios and the base case. This was done by using a method of capacity-
unconstrained optimization.13 This process incorporated certain fare constraints in
order to produce more realistic results. For example, fares for a given origin-
destination pair were constrained to not exceed the sum of the fares between the
origin and an intermediate station and between an intermediate station and the
destination. Also, one constraint ensured that there would be a premium on HSR
fares as compared with conventional rail fares.

This step was performed because we assumed Amtrak would set fares for the new
service using a revenue management process as it does now, rather than simply
maintaining current fares. However, we found that the revenue maximization
process we modeled would have diverted considerably more revenues and riders
from other modes than Amtrak’s revenue management process. To isolate the
benefits from upgrading travel times alone, we first used our revenue
maximization process to estimate the revenues that could have been generated
without upgrading travel times. We then also applied it to determine the revenues
that could have been generated at the upgraded travel times.

Calculating Benefits for a Single Year
In the third stage of the study, CRA estimated the increase in benefits resulting
from shorter HSR trip times for a single year under both scenarios. The increase in
benefits was the sum of the increases in Amtrak’s revenues, consumer surplus, and
congestion relief. The revenue increases were calculated as the difference between
the baseline revenue and the revenue in each of the two scenarios, all evaluated at
the revenue-maximizing fares.


13.
      Optimization is a mathematical tool used to determine the values that maximize (or minimize) an objective. In this
      case, the objective was revenues from HSR, and the optimal values were the HSR fares that maximized HSR
      revenues.


Exhibit A. Scope and Methodology
                                                                                                               13


The increase in consumer surplus was calculated separately for those who were
already riding Acela, those who diverted to HSR from air carriers, those who
diverted to HSR from automobiles, those who diverted to HSR from conventional
rail, and those who had not been traveling previously but were induced to travel by
the advent of the new HSR. For the first three groups, the gains in consumer
surplus were proportional to the sum of the monetary value of the travel time
reduction, net of the fare increase, plus the monetary value of the modal constant
change (both of these monetary values were generated by the models). Modal
constants in binary choice models measure the preference of travelers for one
transportation mode over another. CRA adjusted the modal constants to capture
the higher levels of comfort and reliability expected to follow from bringing the
NEC infrastructure up to a state of good repair.

For travelers who were expected to divert to HSR from conventional rail, the
mode choice models allowed for direct calculation of the gain in consumer surplus
as the increase in utility or consumer welfare as measured by a standard economic
utility or consumer welfare function. For those travelers who had not been
traveling previously, but were induced to travel by the advent of the new HSR,
consumer surplus was calculated as a proportion of a function of the change in a
generalized measure of costs that included the cost of time.

To calculate congestion benefits, monetary values of time were multiplied by the
travel time reductions experienced by those travelers who continued to travel by
air carrier or automobile. In addition, the savings in operational costs per unit of
time for different categories of aircraft were multiplied by the reductions in airport
delays. Delays for each of thirteen airports 14 were derived using a Volpe
Transportation Systems Center model of airport congestion, along with data from
the Federal Aviation Administration’s Terminal Area Forecasts and information
provided by operations personnel from the different airports. Congestion on the
NEC highway network was calculated using a highway model constructed in
TransCAD from National Highway Planning Network data and traffic count data.

Calculating the Net Present Value of Benefits Occurring Over the Lifetime
of the Investments
It was assumed that infrastructure improvements allowing for scenario 1 travel
times would be completed by the year 2012, and those supporting scenario 2 travel
times would be completed by 2017. In both scenarios, the investments were
assumed to last 33 years. Calculating the NPV of the resulting benefits required

14
     The thirteen airports were chosen due to their high air volumes. They were Baltimore-Washington International
     (BWI), Ronald Reagan Washington National (DCA), Washington Dulles international (IAD), Philadelphia
     International (PHL), Newark Liberty International (EWR), John F. Kennedy International (JFK), LaGuardia (LGA),
     Long Island MacArthur (ISP), Westchester County (HPN), Bradley International (BDL), Theodore Francis Green
     State (PVD), Boston Logan International (BOS), and Manchester Boston Regional (MHT).


Exhibit A. Scope and Methodology
                                                                                                             14


determination of the rates at which the benefits would grow during the 33 years
following completion of the infrastructure improvements in either 2012 or 2017
and then discounting the benefit streams back to 2006.

Since the diversion rates were assumed to be constant, the benefits associated with
each mode would grow at the same rate as demand for travel by that mode. For the
most part, the benefits associated with air travel were grown using FAA’s
Aerospace Forecasts for national air travel reduced by the ratio of anticipated
population growth for the NEC relative to the expected national average. Benefits
related to travel involving the slot-controlled airports were grown using forecasted
enplanements from FAA’s Terminal Area Forecasts. Benefits associated with
each of the other travel modes were determined using mode-specific econometric
models (specifically, direct demand models) in conjunction with socio-economic
data forecasts from Woods and Poole. 15 All benefit streams were discounted to the
year 2006 using a 3 percent real discount rate.

Conducting Sensitivity Analyses
To assess the sensitivity of the level of benefits to the choice of travel time, CRA
estimated the benefits that would have resulted in a single year, 2006, from
achieving each of a series of increasingly shorter travel times. Econometric
models (specifically, binary mode choice models) were used to estimate the
diversions from other transportation modes to HSR that would occur as a
consequence of the travel time reductions. To simplify this process it was
assumed that fares would remain at existing levels, so these analyses did not
involve revenue maximization. The benefits associated with each reduction in
travel time were determined as described in the preceding section on calculation of
benefits for a single year.


Costs
We interviewed representatives from FRA and Amtrak to ascertain which studies
would be relevant to estimating the costs of upgrading the NEC for HSR. Two
documents were identified as providing the best available information on the
subject: “The Northeast Corridor Transportation Plan: New York City to Boston”
by FRA (1994) and “The Northeast Corridor South End Transportation Plan:
Washington, DC to New York City” by Amtrak (2000). We also reviewed the
report entitled “Engineering State of Good Repair” by Amtrak (2006), which
primarily addressed investment needs on the NEC South End and drew heavily
from the 2000 South End Transportation Plan.

15
     Woods and Poole Economics, Inc. is an independent firm that specializes in long-term county economic and
     demographic projections. Woods and Poole's database provides projections of socio-economic variables through
     2030 for every county in the United States.


Exhibit A. Scope and Methodology
                                                                              15



We further consulted with FRA to determine which of the projects listed in the
two documents have already been completed. This determination was fairly
straightforward with respect to the plan for the North End of the NEC. However,
the lack of detail provided in the South End Transportation Plan substantially
limited our ability to do this with respect to that portion of the NEC.
Consequently, our estimate of the investment needs on the South End may be
overstated. Finally, we inflated all costs to 2006 dollars using a gross domestic
product deflator.




Exhibit A. Scope and Methodology
                                                                       16




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REVIEW

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                 Title

  Mitchell Behm                        Program Director

  Betty Krier                          Supervisory Economist/Project
                                       Manager

  Chia-Mei Liu                         Economist




Exhibit B. Major Contributors to This Review
                                                                         17


 508 Compliant Figures for “Analysis of Benefits of High-Speed Rail on the
                           Northeast Corridor”



        Figure 1: Net Present Value of Benefits ($ Millions)
Category of Benefits                 Scenario 1             Scenario 2
Revenues                                 11,895                 26,749
Consumer Surplus                           4,075                 8,643
Congestion Relief                            322                   558
Total                                    16,292                 35,950




        Figure 2: Effects of HSR on Air and Auto Ridership
  Type of Ridership       Numbers of       Change from         Percent
                          Riders in FY        Base           Change from
                             2006                               Base


   Air: Base Case            8,219,053             na              na
   Air: Scenario1            7,346,657         (872,396)          (10.6%)
   Air: Scenario 2           6,552,618       (1,666,435)          (20.3%)


   Auto: Base Case         133,420,489            na                na
   Auto: Scenario1         132,964,580         (455,909)           (0.3%)
   Auto: Scenario 2        132,653,645         (766,844)           (0.6%)
                                                                18




   Figure 3. Sensitivity Analysis of Travel Time Reductions

                             Total Annual    Change in Annual
Travel Time   Travel Time       Benefits         Benefits
 North End    South End       ($ millions)       ($ millions)
   3:00          2:30           1,022                 --
   2:30          2:00           1,357                335
   2:00          1:30           1,770                413
   1:30          1:00           2,296                526
